                            Closeout for MOO100036

    This case was opened in October 2000 when we learned that a reviewer1
alleged a proposal2 recently submitted to NSF contained plagiarism. The
reviewer alleged the PI (and/or co-PI)3 had self-plagiarized, i.e., they had
included in the introduction of the proposal nearly a page of verbatim text from
a publication4 on which the PI and co-PI were authors. The reviewer also said
the PI had plagiarized a smaller amount of text from another papers on which
he was not an author.                                                                                                                     <.
                                                                                                               ...,:,. ,...:. .
                                                                                                                          >.-,;:I
                                                                                                                          'I?..'.


    ~ e ~ a r d the
                 k g f r s t allegation, seKp1agiaris.mis generally considered to be                        . ., .., .:"     .-
                                                                                                                              S),.
                                                                                                                               T.   %
                                                                                                                                    .,:



                                                                                                               ....:, .;"qF%-.
                                                                                                                   ,.. ....
an ethical breach, but not one that rises to the level of misconduct in science.                                  ... ,,,. .
                                                                                                                                    ... .-
                                                                                                                                        z



The copied text associated with the second allegation was about four sentences                              < . , ..:rj, ..$,, .
that represented specific scientific information that was cited to the original                                      ......-.
                                                                                                                    ..    :. ..,.. -
                                                                                                                            _ L / .
                                                                                                                          ....
                                                                                            :., ,   ,   :.:.,;:+         .;;grn.
authors rather than the authors of the paper from which the text was taken.                             :.: ,   ;;.> ;.;'
                                                                                                                  . .:.  ,.                    .
Additionally, due to the specific nature of the text, it would be difficult to                .
                                                                                                                    .
                                                                                                          . .. . ,.:..
                                                                                                  . . _ ,. .,.,., _ i . . i
                                                                                                   . , ;.: ;... , .-.,
phrase it another way. ~ e c a u s of   e these reasons, we concludedthe second
                                                                                                                                     %.,

                                                                                                                     :":,
                                                                                                      ,;,: .,. , ::+.:<
                                                                                        .         . ...  . .
                                                                                                           :-;.-.
                                                                                                                    ..
allegation did not rise to -thelevel of misconduct. However, we :have cautioned        :,     .;:.::?~$TL,
                                                                                                     . :.:. .
                                                                                                                                    ;:-..


the PI and co-PI that they should more closely follow accepted citation and
quotation practices and that continued improper citations could     . lead to future                    _...
                                                                                                        ,...,.
                                                                                                               .
                                                                                                                ..
                                                                                                                          .&.-L-
                                                           ,
                                                           ",   v . ,                                   '
                                                                                                         . .~            -L.ie;r
allegations. - '   '   .                                      .   .
                                                                                                                ,




   This inquiry is closed and no further action will be taken on this case.

cc: Investigation, IG




    (footnote redacted).
  2 (footnote redacted).
  3 (footnote redacted).
  4 (footnote redacted).
                                                  ,
  5 (footnote redacted).



                                    Page 1 of 1
